TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Additional Actions Are Needed to
                          Effectively Address the Tax Gap



                                           April 23, 2008

                              Reference Number: 2008-30-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 23, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Actions Are Needed to Effectively
                             Address the Tax Gap (Audit # 200730IE029)

 This report presents the results of our review of the tax gap reduction efforts that are underway.
 The overall objective of this review was to determine the progress of the plans and actions taken
 by the Internal Revenue Service (IRS) to reduce the tax gap. The audit was initiated by the
 Treasury Inspector General for Tax Administration during Fiscal Year 2007 because of ongoing
 Congressional interest in the area.

 Impact on the Taxpayer
 The tax gap, estimated at $345 billion for Tax Year 2001, is the difference between taxes that are
 legally owed and taxes that are paid on time. The Department of the Treasury and the IRS
 developed a multiyear strategy for improving compliance and reducing the tax gap. However,
 the strategy is dependent on overcoming several high-risk challenges. While the United States
 has one of the highest tax compliance rates in the world at 83.7 percent, each percentage point of
 noncompliance costs the Federal Government approximately $21 billion in lost revenue.
 Taxpayers who do not voluntarily pay their share of taxes create unfair burden on honest
 taxpayers and diminish the public’s respect for the tax system.

 Synopsis
 In August 2007, the Department of the Treasury and the IRS issued a report entitled Reducing
 the Federal Tax Gap: A Report on Improving Voluntary Compliance. The report details the
 steps currently being taken by the IRS, as well as those under development, to address key
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap



elements of the tax gap. After reviewing the report, the Chairman, Senate Finance Committee,
stated that he was “very encouraged . . . and believe[d] that it is an important step toward fairer
and more efficient tax administration.”
The current IRS strategy is significantly more comprehensive and detailed than the previous
efforts. The strategy identifies seven components that support a multifaceted approach to
reducing the tax gap. Each component identifies ongoing and planned actions for the
component. However, the strategy is largely predicated on receiving funding for additional
compliance resources and enactment of legislative changes. Long-term success will in large part
be dependent on addressing several risk factors, some of which are beyond the control of the
IRS. For example, there are proposals for additional information reporting that are dependent on
legislative action. Also, additional compliance staffing and resources for research require budget
increases. When these factors are combined with the IRS’ managing of high-risk areas like
Business Systems Modernization, additional progress in IRS capabilities and capacities must be
realized.
Examples of the challenges are the proposed legislation changes that are critical to the Reduce
Opportunities for Evasion component of the tax gap strategy. Although the legislative changes1
proposed in the Fiscal Year 2008 budget were a step in the right direction, the $29.5 billion in
revenue expected to be generated over 10 years would have a minimal impact (less than
1 percent) on the estimated Tax Year 2001 gross tax gap of $345 billion. In addition,
approximately 97 percent ($28.8 billion of $29.5 billion) of the additional revenue generated by
the legislative proposals would be derived from increased information reporting requirements.
Therefore, any reductions in evasion seem very dependent on new information reporting
requirements. While expanding information reporting is a proven method to increase taxpayer
compliance, there is resistance to the proposals.
In the Make a Multiyear Commitment to Research component, the Fiscal Year 2009 budget
request included approximately $51 million to improve tax gap estimates, measurements, and
detection of noncompliance.2 Through research studies funded by this initiative, the IRS plans to
analyze new taxpayer segments and update existing estimates of noncompliance. However, there
are other budget requirements to conduct research. The estimated cost of the National Research
Program (NRP) of Tax Year 2001 individual taxpayers was approximately $150 million.3 The
NRP study of Subchapter S corporations began in October 2005, and preliminary internal data
were available in January 2008. Some tax segments could require sample sizes larger than the
annual number of returns examined in the operational examination program, which would put

1
  Our review focused primarily on the legislative proposals in the IRS’ Fiscal Year 2008 budget request. Only 3 of
the 16 Fiscal Year 2008 legislative proposals were passed. With the exception of 1 proposal (Expand broker
information reporting), the remaining 12 proposals are included in the IRS’ Fiscal Year 2009 budget request.
2
  The Fiscal Year 2008 budget request included $41 million for research, which the IRS did not receive.
3
  A significant portion of the $150 million was for examination resources in the form of examiner labor hours.
Those examiners would have worked other cases if they did not work NRP cases.
                                                                                                                     2
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap



considerable strain on operational resources. The IRS is addressing this issue by moving to
multiyear studies such as the Tax Year 2006 NRP of individual taxpayers, which is the first in a
series of ongoing annual individual taxpayer studies. Consistent funding above operational
levels is required to assure that this component of the tax gap strategy will be successful.
Finally, a major risk to long-term success is the Business Systems Modernization program.
While the IRS is making progress in addressing concerns with the management of this highly
complex, multibillion-dollar effort, it remains a top management challenge. This is not
surprising given the considerable investment that has been made in the program, the
shortcomings the IRS has experienced in meeting cost and completion commitments, and the
critical role it has in supporting IRS tax gap reduction strategies.

Recommendation
We made no recommendations in this report. However, we discussed the issues contained in the
report with appropriate IRS management officials and have incorporated their viewpoints where
appropriate.
Copies of this report are also being sent to the IRS managers affected by the report issues.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




                                                                                                   3
                               Additional Actions Are Needed to Effectively Address
                                                   the Tax Gap




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Progress Has Been Made in Identifying a Strategy to Reduce
          the Tax Gap ..................................................................................................Page 3
          Significant Challenges Exist in Implementing the Tax Gap Strategy ..........Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Glossary of Terms................................................................Page 24
          Appendix V – Tax Gap Map for Tax Year 2001 ..........................................Page 26
          Appendix VI – Summary of Legislative Proposals for Fiscal Year 2008 ....Page 27
        Additional Actions Are Needed to Effectively Address
                            the Tax Gap




                   Abbreviations

AICPA        American Institute of Certified Public Accountants
BSM          Business Systems Modernization
IRS          Internal Revenue Service
NRP          National Research Program
TCMP         Taxpayer Compliance Measurement Program
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap




                                       Background

The Internal Revenue Service (IRS) has performed detailed studies of taxpayer compliance for
more than four decades. Beginning in 1963, the IRS conducted periodic studies of compliance
under the Taxpayer Compliance Measurement Program (TCMP). The studies consisted of
examinations that required a detailed, line-by-line verification of all items on a taxpayer’s return.
The TCMP studies were discontinued because stakeholders considered them costly, intrusive,
and burdensome. The last TCMP study was of 1988 individual income tax returns that were
filed in 1989.
The National Research Program (NRP) replaced the TCMP. It is a comprehensive effort to
measure voluntary compliance and to develop updated return selection formulas for the different
tax return types. The mission of the NRP Office is to design and implement systems and studies
that will produce timely, reliable information about filing, reporting, and payment compliance.
The initial NRP reporting compliance study addressed individual taxpayer compliance by
examining approximately 46,000 randomly selected individual income tax returns for Tax
Year 2001. The resulting data were used to estimate the individual income tax reporting
subcomponent of the tax gap and to improve workload selection (audit selection) formulas.
Additional studies to update individual and other subcomponents of the tax gap are planned.
The tax gap is the difference between taxes that are legally owed and taxes that are paid on time.
In February 2006, the IRS released the estimate that the gross tax gap was $345 billion for Tax
Year 2001. The voluntary compliance rate (the percentage of taxes that are paid voluntarily and
on time) is 83.7 percent, which gives the United States one of the highest tax compliance rates in
the world. However, each percentage point of noncompliance costs the Federal Government
approximately $21 billion in lost revenue. Figure 1 defines the three components of the tax gap
and shows the amount of noncompliance for each component.




                                                                                              Page 1
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap



               Figure 1: Components of the Tax Gap for Tax Year 2001
                                                                      Amount           Percentage
      Component                      Definition                    (in $ billions)      of Total
                       Tax not paid on time by taxpayers who
       Nonfiling                                                         $27                7.8
                       filed late or not at all
                       Misstatement of tax by taxpayers on
    Underreporting                                                      $285               82.6
                       returns that are filed on time
                       Failure by taxpayers to pay all of the
    Underpayment                                                         $33                9.6
                       reported tax liability on time
         Totals                                                         $345              100.0
  Source: Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance, August 2, 2007
  (issued by the Department of the Treasury and the IRS).

Different information sources are used to estimate the tax gap for various types of taxes within
the three components. For example, United States Census data were used to estimate the
nonfiling tax gap for individual income and estate taxes. Estimates for the underreporting tax
gap were based on random samples of tax returns that were subjected to a thorough tax
examination. The underpayment tax gap estimates were derived from IRS accounting data
and include individual income, corporate income, employment, estate, and excise taxes.
Appendix V presents the IRS’ detailed Tax Year 2001 “Tax Gap Map” for the three components
and the various types of taxes.
This review was performed at the Treasury Inspector General for Tax Administration Office of
Audit in Philadelphia, Pennsylvania, during the period January through November 2007. We
used information from various IRS systems during our review. Due to time and resource
constraints, we did not audit IRS systems to validate the accuracy and reliability of their
information. Also, we did not assess internal controls because to do so would not have been
applicable within the context of our audit objective. Otherwise, we conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                                     Page 2
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap




                                      Results of Review

Progress Has Been Made in Identifying a Strategy to Reduce the Tax
Gap
In August 2007, the Department of the Treasury and the IRS issued a report entitled Reducing
the Federal Tax Gap: A Report on Improving Voluntary Compliance. The report details the
steps currently being taken by the IRS, as well as those under development, to address key
elements of the tax gap. The report recognizes that no single approach will be successful at
substantially reducing noncompliance. The strategy is presented as a comprehensive, integrated,
multiyear approach that must be implemented within the context of the annual budget process.
The report builds on A Comprehensive Strategy for Reducing the Tax Gap, which the
Department of the Treasury released in September 2006.
Senator Max Baucus, Chairman, Senate Finance Committee, expressed his less than full
satisfaction with the September 2006 report, A Comprehensive Strategy for Reducing the Tax
Gap, by stating that the Department of the Treasury did “not have a comprehensive credible plan
for the tax gap.” However, after reviewing the August 2007 report, the Chairman stated that he
was “very encouraged . . . and believe[d] that it is an important step toward fairer and more
efficient tax administration.” The tax gap strategy consists of seven components:
• Reduce Opportunities for Evasion.
• Make a Multiyear Commitment to Research.
• Continue Improvements in Information Technology.
• Improve Compliance Activities.
• Enhance Taxpayer Service.
• Reform and Simplify the Tax Law.
• Coordinate With Partners and Stakeholders.

Reduce Opportunities for Evasion
The Reduce Opportunities for Evasion component contains two approaches. The first involves
16 legislative proposals submitted with the IRS’ Fiscal Year 2008 budget request.1 The

1
  Our review focused primarily on the IRS’ Fiscal Year 2008 budget request including legislative proposals. Only
3 of the 16 Fiscal Year 2008 legislative proposals were passed. With the exception of 1 proposal (Expand broker
information reporting), the remaining 12 proposals are included in the IRS’ Fiscal Year 2009 budget request.
                                                                                                          Page 3
                      Additional Actions Are Needed to Effectively Address
                                          the Tax Gap



legislative proposals addressed expanding information reporting, improving compliance by
businesses, strengthening tax administration and strengthening penalties. Altogether, the
legislative changes were projected to generate about $29.5 billion in additional revenue over a
10-year period.
The other approach to reduce opportunities for evasions is to use published guidance that
includes regulations, revenue rulings, revenue procedures, notices, and announcements.
Published guidance is seen as a critical method to reduce tax avoidance, increase taxpayer
compliance, and clarify ambiguous areas of the law. No estimates are provided on the projected
revenue effect of providing the published guidance.
The 16 legislative proposals fall into 4 categories: expand information reporting, improve
compliance by businesses, strengthen tax administration, and expand penalties. Appendix VI
lists the 16 legislative proposals by category and provides an estimate of the revenue for each
proposal.
Seven of the legislative proposals concern the expansion of information reporting requirements
and are expected to generate an estimated $28.8 billion in revenue over 10 years. The IRS
estimates that more than 80 percent ($285 billion) of the gross tax gap is caused by the
underreporting of tax, which occurs when a taxpayer understates income, overstates deductions,
and/or overstates credits. Numerous IRS studies indicate that tax compliance increases
significantly when there is third-party information reporting. The NRP study shows that
underreporting for individuals is 1.2 percent when there is withholding and information
reporting. In contrast, underreporting is 53.9 percent when there is no information reporting.
Figure 2 shows the sources of the Underreporting component of the tax gap.




                                                                                            Page 4
                        Additional Actions Are Needed to Effectively Address
                                            the Tax Gap



      Figure 2: Underreporting Component of the Tax Gap for Tax Year 2001
                                                               Amount            Percentage
                     Source (type of tax)
                                                            (in $ billions)       of Total*
      Individual Income                                    197                 69.1
           Non-Business Income                                           56               19.6
           Business Income                                              109               38.2
           Adjustments, Deductions, and Exemptions                       15                   5.3
           Credits                                                       17                   6.0

      Corporation Income                                   30                  10.5
           Small Corporations (Assets of less than
                                                                           5                  1.8
           $10 million)
           Large Corporations (Assets of $10 million and
                                                                         25                   8.8
           greater)

      Employment                                           54                  18.9
           Social Security and Medicare                                  14                   4.9
           Self-Employment                                               39               13.7
           Unemployment                                                    1                   .4

      Estate                                               4                   1.4
      Totals                                               285                 100.0
     Source: Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance,
     August 2, 2007 (issued by the Department of the Treasury and the IRS).
     * Amounts might not add to total due to rounding.

Individuals account for more than 80 percent ($236 billion) of the overall underreporting gap of
$285 billion. This includes both the underreporting of individual income tax ($197 billion) and
the underreporting of self-employment taxes ($39 billion). Of this amount, $148 billion (or
approximately one-half of the $285 billion underreporting gap) arises from the underreporting of
business income by individuals ($109 billion of individual income tax and $39 billion of
self-employment taxes). The IRS Commissioner has stated “that we [the IRS] will never be able
to audit our way out of the tax gap.” Information reporting is seen as a proven method to
improve voluntary tax compliance.
Another category of legislative proposals is to improve compliance by businesses. Three
proposals in this category are estimated to generate revenue of $421 million over 10 years.
Three legislative proposals designed to improve administration of the tax laws comprise the third
category and were estimated to generate $17 million over 10 years. The fourth and final
                                                                                                    Page 5
                             Additional Actions Are Needed to Effectively Address
                                                 the Tax Gap



category of legislative proposals, expand penalties, was expected to generate $178 million over
10 years.

Make a Multiyear Commitment to Research
IRS experience shows that research is very important in identifying and combating specific areas
of noncompliance. For example, the Tax Year 2001 NRP data updated tax return selection
formulas and should help the IRS better pursue noncompliant taxpayers. The new formulas, the
first update since 1992, were used to select Tax Years 2005 and 2006 individual income tax
returns for examination. These efforts should help to focus compliance resources on more
productive examinations, resulting in increased dollar yield per case and fewer no-change audits.
To make the multiyear commitment to research, the Fiscal Year 2009 budget request includes
approximately $51 million to improve tax gap estimates, measurements, and detection of
noncompliance.2 Through research studies funded by this initiative, the IRS plans to analyze
new taxpayer segments and update existing estimates of noncompliance. Most of this funding
will cover the cost of examination resources. The IRS estimates that this initiative will produce
almost $16 million in additional annual enforcement revenue once the employees hired to carry
out the initiative reach their full potential in Fiscal Year 2010. This initiative includes the
following:
• Increasing compliance studies to update information on corporation income tax, employment
  tax, and partnership compliance and obtain information on excise tax compliance.
• Updating existing data for individual income tax return filers.
Additionally, the IRS received $5 million in the Fiscal Year 2008 budget to research the effect of
service on taxpayer compliance.
Continuous research is required because the tax gap estimate and return selection model data
become dated. The IRS has plans for completing and initiating several new studies. First, a new
NRP individual taxpayer study was begun in October 2007. The study will include
approximately 13,000 randomly selected Tax Year 2006 individual income tax returns and will
be the first in a series of ongoing annual individual taxpayer studies. The goal is to make annual
updates to the tax gap estimate after the first three annual studies. A separate sample of
international tax returns is included in this study.
Second, the Subchapter S Corporation NRP study is in process. The study began in
October 2005, and preliminary internal data were available in January 2008. This study is
especially important because of the significant increase in the filing of Subchapter S corporation
returns from approximately 722,000 in 1985 to more than 3.6 million in 2004. The last time the
IRS evaluated compliance rates for Subchapter S corporations was in 1984.

2
    The Fiscal Year 2008 budget request included $41 million for research, which the IRS did not receive.
                                                                                                            Page 6
                             Additional Actions Are Needed to Effectively Address
                                                 the Tax Gap



Finally, the NRP Office is in discussions with the Large and Mid-Size Business, Small
Business/Self-Employed, and Tax Exempt and Government Entities Divisions staff regarding
studies of employment taxes.

Continue Improvements in Information Technology
The IRS strategy states that information technology modernization is critical to ensuring the
most productive use of taxpayer service and compliance resources. The Fiscal Year 2008 budget
provides resources for the planning and capital assets acquisition of information technology
necessary to modernize IRS business systems. Specifically, funding is provided to improve the
information technology infrastructure and to continue development and deployment of the IRS
Business Systems Modernization (BSM) program.
Progress in this area is vital to improving enforcement and services capabilities. The
Fiscal Year 2008 budget included funding for the IRS to upgrade its critical information
technology infrastructure, enhance the Computer Security Incident Response Center,3 and
enhance network infrastructure security.
The IRS has a backlog of equipment that has exceeded its life cycle. Failure to replace the
information technology infrastructure will increase the risk of disrupting business operations.
Enhancements to the Computer Security Incident Response Center and network infrastructure
security should allow the IRS to keep pace with the ever-changing security threat environment
through enhanced detection and analysis, improved forensics, and the ability to identify and
respond to potential intrusions before they occur. Funding should help address threats by
providing the IRS with resources to employ additional security safeguards and use up-to-date
technologies. Enhancement of the network infrastructure security should provide the IRS with
the ability to continuously monitor the security of operational systems.
Funding for the BSM program should allow the IRS to continue development of modernization
projects, such as the Customer Account Data Engine, Account Management Services, and
Modernized e-File projects. The development of the Customer Account Data Engine and
Account Management Services systems should enable the IRS to process tax returns and address
taxpayer issues in a near real-time manner. The Modernized e-File project is the future of
electronic filing. It should enable the IRS to better analyze tax compliance issues and address
noncompliance among taxpayers by reengineering much of the IRS’ current manual and
time-consuming compliance processes.
Many of the initiatives to improve information technology and to continue BSM efforts have a
direct impact on efforts to improve compliance. Some examples of the initiatives that support
both the Continue Improvements in Information Technology and the Improve Compliance
Activities components of the tax gap strategy are:

3
    See Appendix IV for a glossary of terms used in this report.
                                                                                            Page 7
                      Additional Actions Are Needed to Effectively Address
                                          the Tax Gap



• Improve high-income examination workload selection and method of delivery.
• Expand Automated Underreporter Auto Notice Generation to include additional income types
  and all individual income tax returns.
• Evaluate the Automated Underreporter matching process and implement an improved case
  scoring and selection concept to select the most productive cases.
• Develop enhancements to the Compliance Data Warehouse to improve workload
  identification and prioritization formulas.
• Automate lien delivery, recording, and release processes with State and local jurisdictions to
  improve the timeliness of lien filings and the payment of fees.
• Develop and implement a set of compliance decision analytical tools to support analysis of
  Tax Exempt and Government Entities Division returns and other data to detect compliance
  trends and improve case and issue selection.
Additionally, plans to continually improve information technology also affect the Enhance
Taxpayer Service component of the tax gap strategy.

Improve Compliance Activities
The Improve Compliance Activities component strategy addresses the tax gap by balancing three
enforcement elements: coverage, yield, and intentional noncompliant behavior. Balanced
coverage is important from a presence and noncompliance deterrence perspective. Yield
addresses applying compliance resources to noncompliance areas that provide the greatest
revenue. Finally, intentional noncompliant behavior involves larger components of the tax gap,
more complex issues, and/or unreported income requiring more in-depth audits or criminal
investigations.
As of August 2007, the Deputy Commissioner for Services and Enforcement had formed an
executive-level tax gap committee that analyzes compliance data and makes recommendations
for allocating compliance resources. The goal is to maximize the use of resources to better
address coverage, yield, and noncompliant behavior.
The IRS did not receive funding for FY 2008 for six initiatives that were aimed at improving
compliance activities. However, the FY 2009 budget request includes the following four
enforcement initiatives, including funding for an additional 2,664 employees:
•   Reduce the tax gap for small business and self-employed taxpayers.
•   Reduce the tax gap for large businesses.
•   Increase reporting compliance of United States taxpayers with offshore activities.
•   Expand document matching.

                                                                                            Page 8
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap



The IRS estimates that when the newly hired employees reach full potential in Fiscal Year 2011,
the initiatives should generate approximately $1.99 billion in additional enforcement revenue per
year.
The IRS has several other initiatives designed to improve compliance activities. Examples
include plans to enhance the ability to identify and address tax schemes of businesses and
individuals involving offshore activity, address illegitimate use of tax havens to shelter income,
increase information matching and examination activity for individuals living abroad, enhance
collection programs, and improve compliance by tax preparers by implementing the
Service-Wide Preparers Strategy.
The IRS has already made strides to enhance enforcement of the tax law. According to IRS
statistics, approximately $59.2 billion of the tax gap in Fiscal Year 2007 was recovered through
enforcement efforts. This represents an increase of 21.6 percent from the prior year. The IRS
has also reported that audit rates of individuals, Subchapter S corporations, and partnerships
increased from Fiscal Year 2006 to Fiscal Year 2007. These positive trends reflect the IRS’
commitment to enforce the tax law and reduce the tax gap.

Enhance Taxpayer Service
The Department of the Treasury and the IRS recognize that effective taxpayer service has a
significant impact on voluntary tax compliance. Assisting taxpayers in preparing their returns by
answering tax questions reduces the burden of notices and correspondence that taxpayers might
have received if they made errors on their returns. Taxpayer service also reduces overall
unintentional noncompliance and the need for compliance activity in the future.
The IRS needs to conduct research to determine the impact that taxpayer service activities have
on taxpayer compliance. The Fiscal Year 2008 budget included funding of $5 million for this
important research. The study plans to evaluate the relationship between service and taxpayer
compliance and to examine the needs, preferences, and behaviors of taxpayers. The study will
strive for a better understanding of why taxpayers make errors and will assist the IRS in
developing strategies to change noncompliant behavior. It will focus on four areas:
• Meeting taxpayer needs by providing the right channels of communication.
• Better understanding of taxpayer burden.
• Understanding taxpayer needs through the errors they make.
• Researching the impact of service on overall levels of voluntary compliance.
Taxpayer service is important in helping taxpayers avoid unintentional errors by providing them
with year-round customer service. Taxpayer service has become more necessary because of the
increasing complexity of the tax code. By assisting taxpayers who want to be compliant, the IRS
can focus on taxpayers who intentionally evade their tax obligations.

                                                                                             Page 9
                        Additional Actions Are Needed to Effectively Address
                                            the Tax Gap



The IRS presented a Taxpayer Assistance Blueprint to Congress in response to a Congressional
mandate for the development of a 5-year plan for the delivery of taxpayer service. The Blueprint
was prepared by the IRS, the IRS Oversight Board, and the National Taxpayer Advocate. It
addresses the service delivery plans for individual taxpayers and is integrated with the
Department of the Treasury tax gap strategy. The Blueprint includes a multiyear research
portfolio, consisting of a set of research projects that includes studies to better understand the
impact of service on compliance.

Reform and Simplify the Tax Law
Most taxpayers agree that the Internal Revenue Code is too complicated--which can lead to
unintentional errors because taxpayers find it difficult to understand complicated rules and
forms--and, therefore, make honest mistakes when completing their tax returns. Complexity also
provides opportunities for noncompliance. Simplification would reduce unintentional errors
caused by a lack of understanding, reduce opportunities for intentional evasion, and make tax
law administration more efficient.
In testimony before the Committee on the Budget, House of Representatives,4 the Government
Accountability Office stated that, “Simplifying the tax code or fundamental tax reform has the
potential to reduce the tax gap by billions of dollars.” The IRS estimates that approximately
$32 billion of the tax gap is due to errors in claiming tax credits and deductions. Therefore,
reducing the numbers of credits and deductions would potentially have some direct effect on
reducing the tax gap. The Government Accountability Office acknowledges that the elimination
of such credits and deductions would be difficult, however, because they serve purposes that
Congress considers important.
The Fiscal Year 2008 budget included specific, but very limited, proposals that would assist with
simplification, reduce errors, and improve taxpayers’ understanding of available tax benefits.
The following proposals should help compliant taxpayers avoid inadvertent errors, though they
do not address intentional noncompliance:
• Clarify the uniform definition of a child.
• Simplify Earned Income Tax Credit eligibility requirements.
• Reduce the computational complexity of the refundable Child Tax Credit.
The IRS continues its internal efforts to reduce taxpayer burden by simplifying forms and
procedures. For example, in 2002, the IRS established the Office of Taxpayer Burden
Reduction. Taxpayer burden is defined as the time and money taxpayers spend to comply with
their Federal tax obligations, such as the average time and expense required to complete and file


4
 Tax Compliance: Multiple Approaches Are Needed to Reduce the Tax Gap (GAO-07-488T, dated
February 16, 2007).
                                                                                            Page 10
                              Additional Actions Are Needed to Effectively Address
                                                  the Tax Gap



a form. The IRS has recently made improvements in forms, processes, and procedures such as
simplifying filing requirements for the Employer’s ANNUAL Federal Tax Return (Form 944).
The Office of Taxpayer Burden Reduction is reviewing additional projects through which to
simplify tax forms and processes.
Other efforts to help simplify the administration of the tax law include continuing efforts to
improve forms and publications, using IRS.gov to disseminate tax product information and
changes, and conducting focus groups to obtain taxpayer information.

Coordinate With Partners and Stakeholders
The Department of the Treasury tax gap strategy suggests that closer coordination is needed
among IRS and State and foreign Governments to share information and compliance strategies.
Closer coordination is also needed with practitioner organizations to maintain and improve
methods to ensure that tax advisors provide taxpayers with appropriate tax advice.
The IRS has made significant steps in coordinating with partners and stakeholders. IRS officials
solicited from tax executives of global accounting firms in the United States their views on ways
in which voluntary compliance could be improved and the tax gap reduced, while maintaining
taxpayer services and minimizing taxpayer burden. The resulting Tax Gap Whitepaper5 offered
valuable comments and observations about the Department of the Treasury strategy.
In an example of outreach, the IRS is partnering with local, State, and Federal agencies across
the country. Examples of some current initiatives include:
• The Questionable Employment Tax Practices initiative to develop a Federal and State
  interagency approach to combat employment tax schemes and increase voluntary compliance.
• The State Reverse File Match initiative, a pilot project that is assessing the potential use of
  State-provided data to identify underreported income and nonfiled returns.
• The Tax Education initiative to enter into agreements with State education departments and
  Federal immigration agencies to promote materials to educate younger citizens and foreign
  taxpayers about United States tax responsibilities.
The IRS also has an extensive outreach and education program through relationships with
national and local payroll, practitioner, small business, and industry stakeholder organizations.
Examples of accomplishments include developing relationships with more than 1,500 small
business industry and tax professional organizations to deliver key tax-related messages,
implementing Small Business Forums with industry representatives and small business owners,
developing and widely distributing educational information on areas of high noncompliance, and
establishing a system to track the resolution of problems identified by stakeholders.


5
    Published May 24, 2007.
                                                                                            Page 11
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap



The following initiatives are examples of further coordination with partners and stakeholders:
•   Develop a strategy to reach practitioners who have no affiliation with a professional
    organization.
•   Develop an educational, targeted outreach DVD for military personnel preparing for
    retirement.
•   Develop strategies to educate first-time business filers.
•   Deliver educational messages through existing relationships with universities and colleges.
•   Request feedback from internal and external stakeholders on existing outreach and
    educational programs to identify best practices and enhancements.

Significant Challenges Exist in Implementing the Tax Gap Strategy
The IRS and the Department of the Treasury strategic plan to reduce the tax gap is largely
predicated on receiving funding for additional compliance resources and enactment of legislative
changes. Furthermore, sizeable efficiency gains in taxpayer service and compliance resources
are dependent on the successful implementation of information technology enhancements and
the IRS’ ability to manage other risks. Beyond these challenges, the IRS will have a major
workforce transition in the near future because 41 percent of revenue agents are eligible to retire
by the end of Calendar Year 2008. In combination, the IRS faces significant challenges as it
attempts to reduce the tax gap and improve voluntary compliance.
While we are encouraged by the development of a detailed strategy to reduce the tax gap,
long-term success will in large part be dependent on addressing several risk factors, some of
which are beyond the control of the IRS. For example, there are proposals for additional
information reporting that are dependent on legislative action. Also, additional compliance
staffing and resources for research require budget increases. When these factors are combined
with the IRS’ managing of high-risk areas like BSM, additional progress in IRS capabilities and
capacities must be realized.

Legislative proposals will have a minimal impact on the tax gap and face
resistance
Legislation changes are critical to improving compliance and reducing the tax gap. Although
the changes proposed in the Fiscal Year 2008 budget were a step in the right direction, the
$29.5 billion in revenue expected to be generated over 10 years would have a minimal impact
(0.85 percent) on the estimated Tax Year 2001 gross tax gap of $345 billion. In addition,
approximately 97 percent ($28.8 billion of $29.5 billion) of the additional revenue generated by
the legislative proposals would be derived from increased information reporting requirements.


                                                                                            Page 12
                         Additional Actions Are Needed to Effectively Address
                                             the Tax Gap



Therefore, any reductions in evasion seem very dependent on new information reporting
requirements.
While expanding information reporting is a proven method to increase taxpayer compliance,
there is resistance to the proposals. Representatives from the National Association for the
Self-Employed and the National Small Business Association testified and expressed concerns
that the legislative proposals place unreasonable burden on taxpayers.6 Furthermore, in a
recently issued document,7 tax professionals from six major accounting firms agree that
“properly used, information reporting is a useful tool to follow up with taxpayers on
underreported income and identify high-noncompliance issues. . . . However, new information
reporting, especially coupled with withholding, likely would pose new burdens and challenges to
taxpayers and third-party reporters of information.” Thus, legitimate concerns about increased
taxpayer burden, when compared to the benefits, could make it very difficult for all 16 legislative
proposals to become law.
We believe that the IRS needs to continue to pursue common areas of tax abuse. For example,
we recently identified significant concerns about taxpayers with substantial wage and pension
sources of income taking Profit or Loss From Business (Schedule C) losses for 4 consecutive
years.8 The current tax law makes it difficult for the IRS to effectively and efficiently address
potential abuses without conducting a full examination of an individual’s books and records. We
identified 1.2 million taxpayers who potentially avoided paying $2.8 billion in taxes in Tax
Year 2005 by claiming Schedule C losses. Similarly, there are potential abuses of employment
tax laws caused by misclassified workers and single shareholder owners of Subchapter S
corporations. In addition, a prior Treasury Inspector General for Tax Administration audit found
that a significant number of single shareholder owners of Subchapter S corporations did not pay
themselves salaries to avoid paying employment taxes.9 We estimated that this would cost the
Department of the Treasury approximately $60 billion in employment taxes over 5 years. We
believe that the combination of increased transparency through expanded information reporting
and targeted legislation aimed at tax abuse loopholes would make the strategy for the Reduce
Opportunities for Evasion component more robust.

Consistent funding for multiyear research is necessary to update estimates and
understand noncompliant behavior
We concur that a multiyear commitment to research is a vital component to reducing the tax gap.
We also agree that continuous measurement and updating of the various taxpayer segments and

6
  House Small Business Committee Hearing on Tax Gap, April 26, 2007.
7
  Tax Gap Whitepaper, dated May 24, 2007.
8
  Significant Challenges Exist in Determining Whether Taxpayers With Schedule C Losses Are Engaged in Tax
Abuse (Reference Number 2007-30-173, dated September 7, 2007).
9
  Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole Proprietorships and
Single-Shareholder S Corporations (Reference Number 2005-30-080, dated May 2005).
                                                                                                      Page 13
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap



components are needed to identify where scarce resources can be applied to improve compliance.
However, research efforts need to go beyond compliance measurement. The behavioral aspects
of noncompliance need to be better understood so that effective treatment remedies can be
applied. For example, IRS research studies show that there is an extremely high recidivism rate
for individual nonfilers in the years following IRS-imposed tax assessments and penalty
treatments. This situation suggests that the IRS process is less than effective in achieving future
compliance.
Further, the NRP research measurement process is very costly in terms of time expended and the
use of examination resources. The estimated cost of the NRP of Tax Year 2001 individual
taxpayers was approximately $150 million.10 The NRP study of Subchapter S corporations will
take 2 to 3 years to complete. Some tax segments could require sample sizes larger than the
annual number of returns examined in the operational examination program, which would put
considerable strain on operational resources. Thus, consistent funding above operational levels
is required to assure that this component will be successful.
Finally, we previously recommended that the IRS Commissioner consider establishing a tax gap
advisory panel that includes tax and economic experts to identify ways to better measure
voluntary compliance.11 In 2007, the IRS established an advisory group to validate and improve
its estimation methods.

Continued improvements in information technology and the success of BSM are
essential for reducing the tax gap
Improving tax administration by modernizing the IRS’ outdated computer systems is necessary
to more efficiently collect taxes. However, the success of BSM is contingent on continued
funding and successful planning, design, development, and implementation. Both the
Government Accountability Office and we regularly review BSM and have noted the progress
the IRS is making in addressing concerns raised about the management of this highly complex,
multibillion-dollar effort. For example, we recently reported12 that the IRS successfully
developed and executed plans for delivering a key automated system intended to provide
employees with the ability to update taxpayer accounts on demand and respond to taxpayer
inquiries more quickly and accurately.
While the IRS has made progress, the BSM program remains on the Government Accountability
Office’s high-risk list, in part, to ensure that the program receives the requisite amount of
oversight. This is not surprising given the considerable investment that has been made in the

10
   A significant portion of the $150 million was for examination resources in the form of examiner labor hours.
Those examiners would have worked other cases if they did not work NRP cases.
11
   Some Concerns Remain About the Overall Confidence That Can Be Placed in the Internal Revenue Service Tax
Gap Projections (Reference Number 2006-50-077, dated April 2006).
12
   Account Management Services Is Meeting Its Development Goals (Reference Number 2008-20-053, dated
March 3, 2008).
                                                                                                        Page 14
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap



program, the shortcomings the IRS has experienced in meeting cost and completion
commitments, and the critical role it has in supporting IRS tax gap reduction strategies. Like the
Government Accountability Office, we consider BSM a major management challenge.
Since Fiscal Year 2002, our Modernization program annual assessments have cited the following
four specific challenges that the IRS needs to overcome to deliver a successful modernization
effort:
1. Implement planned improvements in key management processes and commit necessary
   resources to enable success.
2. Manage the increasing complexity and risks of the Modernization program.
3. Maintain the continuity and strategic direction with experienced leadership.
4. Ensure that contractor performance and accountability are effectively managed.
In the 2007 Annual Assessment of BSM, we recommended that the Chief Information Officer
continue to address Modernization program corrective actions from our and Government
Accountability Office reports through the Highest Priority Initiatives process. By focusing
corrective action efforts through this process, the IRS could achieve resolution of the challenges
that we had identified and subsequently address downgrading the Modernization material
weakness. IRS management agreed with the recommendation.
We consider BSM the greatest management challenge to the IRS.13 Because the tax gap
reduction strategy places significant emphasis on improving and enhancing information
technology to achieve greater efficiencies, there is considerable management risk. Therefore,
continued attention to the challenges we have identified, along with sufficient funding, are
necessary to address the risk that BSM delays and failures will adversely affect tax gap reduction
plans.

Improving compliance activities is costly and might have a limited effect on
reducing the tax gap
To significantly reduce the tax gap, the enforcement cycle must be completed. In other words,
the tax noncompliance must be identified, and the tax must be assessed and collected.
With regard to the tax gap, the process of detecting noncompliance and collecting the revenue is
costly and often a resource-intensive task. Noncompliance is virtually nonexistent when there is
withholding and information reporting. When there is some information reporting,
noncompliance is 8.6 percent. However, when there is little or no information reporting, the



13
  Treasury Inspector General for Tax Administration Office of Audit Annual Audit Plan Fiscal Year 2008,
Appendix II.
                                                                                                          Page 15
                         Additional Actions Are Needed to Effectively Address
                                             the Tax Gap



noncompliance rate exceeds 53 percent. The primary method used to identify noncompliance by
self-employed taxpayers, who make up one-half of the underreporting tax gap, is examination.
However, the methods used to estimate the underreporting portion of the tax gap highlight the
difficulties encountered in identifying the noncompliance. Dr. Eric J. Toder, a Senior Fellow at
the Urban Institute, recently described the estimation method that the IRS uses to determine the
amount of underreported income that examiners do not detect. As a hypothetical example,
Dr. Toder used a factor of approximately 3.5 times the amount that was identified. That is, if an
examiner identified $100 in underreported income, the IRS would project that the examiner did
not detect another $250 of underreported income, resulting in a total estimate of $350 in
unreported income. Obviously, the IRS cannot assess tax on the $250 if it cannot be detected.
So, even if the IRS examined 100 percent of all returns, they would identify only a small portion
of the $285 billion underreporting gap.
Further, while there is little debate on the need for increased IRS enforcement resources, this is
not a quick path to eliminating the tax gap. Because the largest portion of the tax gap is not yet
assessed, the IRS must identify the noncompliant taxpayer, examine the return, and then assess
the tax. After these processes, the IRS attempts to collect the tax due. The ability to efficiently
and effectively complete this enforcement cycle is affected by a combination of laws and
regulations, internal polices and procedures, technology, and human capital management.
Realizing additional collected revenue by adding additional examination resources shows a
modest initial return on investment. Newly hired agents need to be trained and take several
years to reach their full potential. Our analysis showed that from January 1, 2003, through
December 31, 2005, the IRS hired 1,529 new revenue agents.14 For every $1 in salary that was
paid, the Department of the Treasury has collected $1.40 in additional tax revenue. The salary
figures do not include overhead, training, or opportunity costs for experienced revenue agents
working with new revenue agents. As the Federal Government workforce changes over the next
decade, the challenges of replenishing IRS enforcement programs with new employees could
adversely affect the IRS’ ability to significantly increase revenue through the enforcement
process. The IRS estimates that approximately 40 percent of its more than 12,000 revenue
agents will be eligible to retire by the end of Fiscal Year 2008.
The Small Business/Self-Employed Division is responsible for taxpayers who contribute the
most to the tax gap. The workforce transition for this Division will be considerable in the next
few years. A Treasury Inspector General for Tax Administration analysis of IRS data shows that
by December 31, 2010, approximately 27 percent (3,566 of 13,397) of the compliance
employees15 in the Division will be eligible to retire. Figure 3 shows when these employees will


14
   The 1,529 new revenue agents were identified from the Treasury Integrated Management Information System.
See details in Appendix I.
15
   Revenue agents, revenue officers, and tax compliance officers who are not part of the Small Business/
Self-Employed Division Campus Compliance Services Organization.
                                                                                                      Page 16
                               Additional Actions Are Needed to Effectively Address
                                                   the Tax Gap



be eligible to retire. The IRS has a limited ability and capacity to effectively hire and train new
employees. The combination of increased compliance staffing and replacing retired employees
could adversely affect compliance results.
     Figure 3: Retirement Eligibility - Select Small Business/Self-Employed Division
                                         Employees
           800
                  Number of Employees                                      Internal Revenue Agent - 1,613
                   694                                                     Internal Revenue Officer - 1,553
           700
                                                                           Tax Compliance Officer - 400
                         597
           600


           500


           400


           300                                                283
                                                        253                260 251
                                                                                                      223
                                      200 199                                                   206
           200
                                149

           100                                                       71               63                      63
                                                54

             0
                         2006            2007                 2008             2009                   2010
                                                       Calendar Year
      Source: Our analysis of Treasury Integrated Management Information System data.16

While the IRS has devoted significant efforts to the human capital issue, the risks of this major
workforce transition to the enforcement cycle are considerable. For example, the number of sole
proprietors, who commonly operate on a cash basis, is expected to grow. There is very little or
no information reporting for this sector of taxpayers, and noncompliance is high. As a result, the
IRS’ ability to continue to enforce compliance through the examination process could be
significantly challenged.

Enhanced taxpayer service might reduce only the part of the tax gap related to
unintentional errors
Taxpayer service is an important component in combating the tax gap. However, it can address
only the noncompliance that is related to unintentional errors caused by the complexity and

16
  For 2006, the numbers represent the number of employees eligible to retire as of the end of 2006 and include
employees who became eligible to retire in previous years but have not yet retired. For all other years, the numbers
represent the number of employees who will become eligible to retire in that year.
                                                                                                                   Page 17
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap



confusion surrounding the tax laws. The IRS does not know what portion of the tax gap is the
result of intentional errors. Offering assistance to taxpayers who do not intend to comply will
have no effect on the voluntary tax compliance rate and thus not reduce the tax gap.

Reforming and simplifying the tax law might result in reducing the tax gap, but
few recommendations have been identified
Stakeholders have provided specific suggestions for tax simplification for many years. Since the
inception of the Internal Revenue Code, there have been calls for simplification. For example, a
March 1920 New York Times article discussed the complexity of the tax system and the need for
tax simplification when there were only 7 million taxpayers who filed tax returns. The Joint
Committee on Taxation was founded in 1926 to make recommendations to simplify the tax code.
More recently, in April 2001, the Joint Committee on Taxation released a report on the overall
state of the Federal tax system and recommendations for simplification.17 The report contained
more than 1,300 pages and took approximately 18 months to complete. The study made specific
recommendations for ways to simplify the tax code without changing the policy behind the law.
The report was issued because Internal Revenue Code Section 8022(3)(B) requires that a report
on the overall state of the Federal tax system and recommendations with respect to possible
simplification proposals be produced during each Congress.
The Joint Committee on Taxation study addressed the effect that tax law complexity has on
voluntary compliance. The overall thrust of the analysis was targeted at the confusion that
taxpayers face when the law is complex or the opportunity that complexity “. . . fosters with
multiple interpretations of the law and aggressive planning opportunities.” However, the link
between tax simplification and the tax gap was not made beyond the adverse effect complexity
has on voluntary compliance.
In that same year, the American Institute of Certified Public Accountants (AICPA) issued the
Guiding Principles for Tax Simplification,18 which provided that organization’s framework for
achieving tax simplification. The Guiding Principles developed by the AICPA are:
• Make simplification a priority. Simplification must be viewed as a priority tax policy
  objective and given substantial consideration in conjunction with the development of
  legislation and administrative guidance.
• Seek simplest approaches. Once tax lawmakers identify desired tax policy or revenue
  objectives, the simplest and most transparent approaches to implementation should be sought.




17
   Joint Committee on Taxation, Study of the Overall State of the Federal Tax System and Recommendations for
Simplification, April 2001.
18
   Tax Policy Concept Statement No. 2: Guiding Principles for Tax Simplification, 2002.
                                                                                                       Page 18
                       Additional Actions Are Needed to Effectively Address
                                           the Tax Gap



• Minimize compliance burdens. Compliance costs, in terms of both time and money, should be
  minimized and should be commensurate with the resources and abilities of the affected
  taxpayers.
• Reduce frequency of tax law change. Change in and of itself increases complexity in the short
  term, even if the change will produce long-term simplification. Tax laws should be revised
  only to address changes in revenue needs, to implement significant changes in tax policy, or to
  alleviate existing complexities and inconsistencies.
• Use consistent concepts and definitions. Inconsistencies in legal concepts and definitions
  should be eliminated in existing law and avoided in the drafting of new laws.
• Consider administrative burdens. The ability of tax agencies to administer, provide guidance
  on, and enforce the law must be considered in the development of legislative and
  administrative guidance.
• Avoid limited applicability. Tax rules that apply to a limited set of taxpayers or for only a
  short period of time should be avoided.
The AICPA also provided a noteworthy Policy Statement:
       In this document, Tax Policy Concept No. 2, Guiding Principles for Tax Simplification[,]
       the AICPA reaffirms its support of efforts to reduce complexity in existing federal and
       state tax laws and to curtail incremental complexity in the future. Although an absolutely
       simple tax system may not be feasible in today’s complex business and economic
       environment, a relatively simpler tax system is possible. Further, a simpler tax system
       will benefit individual taxpayers, businesses, federal and state tax agencies and the
       economy.
While it is clear that major tax system stakeholders believe simplification would improve
voluntary compliance, the Reform and Simplify the Tax Law component has only three
recommendations for simplification. The IRS has some information concerning where the
Internal Revenue Code could be improved through simplification. However, there is a
longstanding Department of the Treasury policy that the IRS does not comment on “tax policy.”
We believe that the IRS and the Department of the Treasury must coordinate to provide
comprehensive recommendations to reform and simplify the tax law.




                                                                                           Page 19
                           Additional Actions Are Needed to Effectively Address
                                               the Tax Gap



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the progress of the plans and actions taken
by the IRS to reduce the tax gap.1 During our review, we relied on computer-processed data
contained in the Treasury Integrated Management Information System, the Examination Return
Control System, the Audit Information Management System, and the Master File.2 We did not
establish the reliability of these data because extensive data validation was outside of the scope
of this audit. This did not affect the results contained in the report. Also, we did not assess
internal controls because to do so would not have been applicable within the context of our audit
objective. To accomplish our objective, we:
I.       Compiled and evaluated the IRS’ strategies, plans, and actions designed to address tax
         gap issues.
         A. Interviewed IRS officials and determined progress made on plans to reduce the tax
            gap, including the Department of the Treasury Office of Tax Policy September 2006
            report entitled A Comprehensive Strategy for Reducing the Tax Gap.
         B. Identified completion dates, barriers, and whether management actions will have a
            quantifiable impact on the tax gap.
         C. Calculated the return on investment of hiring additional revenue agents.
             1. Identified the number of new revenue agents hired from January 1, 2003, through
                December 31, 2005, on the Treasury Integrated Management Information System.
                The revenue agents were on this System as of the end of 2006 and were hired in
                2003, 2004, and 2005. Salary information for the 1,529 agents was extracted
                from the System for the end of 2003, 2004, 2005, and 2006.
             2. Matched the Treasury Integrated Management Information System information on
                the 1,529 new revenue agents with the Examination Return Control System to
                identify the return examinations conducted by each agent. The combined
                information was then matched to the Audit Information Management System for
                assessment data and the Individual Master File for payment data for examinations
                closed before July 1, 2006.



1
  The tax gap, estimated at $345 billion for Tax Year 2001, is the difference between taxes that are legally owed and
taxes that are paid on time.
2
  See Appendix IV for a glossary of terms used in this report.
                                                                                                            Page 20
                          Additional Actions Are Needed to Effectively Address
                                              the Tax Gap



        D. Determined the number of Small Business/Self-Employed Division compliance
           employees3 eligible to retire by December 30, 2010, by extracting retirement-eligible
           date information from the Treasury Integrated Management Information System.
        E. Determined whether the IRS has considered external studies and reports on the tax
           gap and has used this information in its planning efforts.
        F. Identified Congressional concerns for tax gap areas and determined how and whether
           these issues have been addressed by the IRS.
II.     Identified research efforts by the Office of Research, Analysis, and Statistics to reduce
        the tax gap.
        A. Evaluated the plans for the NRP and other research efforts related to the tax gap.
        B. Determined when research data will be available and how and when the IRS plans to
           use the research data.
III.    Reviewed completed, ongoing, and planned research efforts of the National Taxpayer
        Advocate that would affect the tax gap.
IV.     Obtained the status of the 16 Fiscal Year 2008 tax gap legislative proposals and analyses
        to determine their viability and potential revenue impact.




3
 Revenue agents, revenue officers, and tax compliance officers who are not part of the Small Business/
Self-Employed Division Campus Compliance Services Organization.
                                                                                                         Page 21
                     Additional Actions Are Needed to Effectively Address
                                         the Tax Gap



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Director
Philip Shropshire, Director
Lisa Stoy, Audit Manager
Joan R. Floyd, Lead Auditor
Earl Charles Burney, Senior Auditor
Theodore J. Lierl, Senior Auditor
Rosemarie M. Maribello, Senior Auditor




                                                                                      Page 22
                    Additional Actions Are Needed to Effectively Address
                                        the Tax Gap



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       National Taxpayer Advocate TAS
       Director, Office of Research, Analysis, and Statistics RAS




                                                                              Page 23
                      Additional Actions Are Needed to Effectively Address
                                          the Tax Gap



                                                                                 Appendix IV


                                Glossary of Terms

Account Management Services – A project that will modernize the ability to collect, view,
retrieve, and manage taxpayer information by providing a common user interface for access and
update of taxpayer accounts managed by a number of systems.
Audit Information Management System – A computer system used to control returns, input
assessments/adjustments to the Master File, and provide management reports.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return Refund Hold Program – A program that minimizes revenue
loss by holding the current-year refunds of taxpayers who are delinquent in filing individual
income tax returns and are expected to owe additional taxes.
Automated Underreporter – The automated analysis and processing of potential underreported
and/or overreported issues identified through information return matching.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Due Process – A process that gives taxpayers an opportunity to raise any relevant
issues pertaining to a lien or proposed levy by filing a hearing request.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Compliance Data Warehouse – A data warehouse specifically designed to meet the unique
needs of research analysts throughout the IRS.
Computer Security Incident Response Center – The organization that provides proactive
prevention, detection, and response to computer security incidents targeting the IRS’ enterprise
information technology assets.
Customer Account Data Engine – An online, modernized data infrastructure that will house the
taxpayer account and return data. The Customer Account Data Engine replaces the IRS Master
File, the repository of all taxpayer information.


                                                                                          Page 24
                      Additional Actions Are Needed to Effectively Address
                                          the Tax Gap



Examination Return Control System – An automated inventory system used for controlling
tax returns and technical time charges.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
IRS Oversight Board – The organization responsible for oversight of the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Misclassified Worker – An individual that has been classified by his or her employer as an
independent contractor/self-employed individual instead of an employee to reduce the tax
liability by not paying State and Federal Unemployment Insurance, Social Security, and
Medicare taxes.
National Taxpayer Advocate – The individual who heads the National Taxpayer Advocate
Service, an independent organization within the IRS whose employees assist taxpayers who are
experiencing economic harm, who are seeking help in resolving tax problems that have not been
resolved through normal channels, or who believe that an IRS system or procedure is not
working as it should.
Return on Investment – The net profit or loss in an accounting period divided by the capital
investment used during the period, usually expressed as an annual percentage return.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – An employee in the Collection Field function who attempts to contact
taxpayers and resolve collection matters that have not been resolved through notices sent by the
IRS campuses (formerly known as service centers) or the Automated Collection System.
Revenue Procedure – An official IRS statement spelling out the administrative practices used
by the IRS.
Revenue Ruling – A published decision by the IRS, printed in the Internal Revenue Bulletin,
dictating how the Federal tax code applies to a particular situation.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function who
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Treasury Integrated Management Information System – The official automated Department
of the Treasury personnel and payroll system.

                                                                                         Page 25
                           Additional Actions Are Needed to Effectively Address
                                               the Tax Gap



                                                                                            Appendix V

                         Tax Gap Map for Tax Year 2001
                                 (in $ Billions)




Source: IRS Office of Research, Analysis, and Statistics.
Legend: FICA = Federal Insurance Contribution Act. TY = Tax Year; TY01 = Tax Year 2001. FY = Fiscal Year.
Small Corporations include corporations with assets of less than $10 million. Large Corporations include
corporations with assets of $10 million and greater.




                                                                                                     Page 26
                            Additional Actions Are Needed to Effectively Address
                                                the Tax Gap



                                                                                               Appendix VI

                  Summary of Legislative Proposals for
                          Fiscal Year 2008

                                                                 Revenue Estimates ($ millions)
                         Proposal                                Department of       Joint Committee
                                                                                                            Status1
  (* = Similar proposal included in Fiscal Year 2007 Budget)     the Treasury          on Taxation

1. Require information reporting on payments to                             7,736                 1,690          N
   corporations
2. Require basis reporting on security sales                                6,709                 3,265          I
3. Expand broker information reporting                                      1,974                 2,470          N
4. Require information reporting on merchant payment                       10,745                10,745          N
   card reimbursements*
5. Require a certified Taxpayer Identification Number                         749                   174          N
   from contractors
6. Require increased information reporting for certain                        390                   100          N
   Federal Government payments for property and
   services*
7. Increase information returns penalties                                     546                   546          I
Totals: Proposals to expand information reporting                          28,849                18,990
8. Require electronic filing by certain large organizations                      0                     0         N
9. Implement standards clarifying when employee                                 57                     0         N
    leasing companies can be held liable for their clients’
    Federal employment taxes*
10. Amend Collection Due Process2 procedures for                              364                   288          P
    employment tax liabilities*
Totals: Proposals to improve compliance by businesses                         421                   288




  1
    Legend: N = Not included in any current legislation as of November 2007.
            I = Included in current pending legislation as of November 2007.
            P = Passed as part of the Small Business and Work Opportunity Tax Act of 2007, Pub. L. No. 110-28,
            Sections 8201-8248.
  2
    See Appendix IV for a glossary of terms used in this report.
                                                                                                           Page 27
                             Additional Actions Are Needed to Effectively Address
                                                 the Tax Gap



                                                                   Revenue Estimates ($ millions)
                          Proposal                               Department of        Joint Committee
                                                                                                               Status
  (* = Similar proposal included in Fiscal Year 2007 Budget)      the Treasury          on Taxation

 11. Expand IRS access to information in the National                             0                      0        N
     Directory of New Hires for tax administration
     purposes
 12. Permit disclosure of prison tax scams                                        5                      5        I
 13. Make repeated willful failure to file a tax return a                       12                       5        N
     felony
 Totals: Proposals to strengthen tax administration                             17                     10

 14. Expand preparer penalties*                                                 80                     82         P
 15. Impose a penalty on failure to comply with                                   0                      0        N
     electronic filing requirements
 16. Create an erroneous refund claim penalty                                   98                      98        P
 Totals: Proposals to expand penalties                                         178                    180

 Grand Totals                                                              29,465                 19,468
Source: General Explanations of the Administration’s Fiscal Year 2008 Revenue Proposals, February 2007, and
Description of Revenue Provisions Contained in the President’s Fiscal Year 2008 Budget Proposal, March 2007
(except for those proposals that were included in the Small Business and Work Opportunity Tax Act of 2007). For
those proposals, see Estimated Revenue Effects of the Small Business and Work Opportunity Tax Act of 2007,
May 2007.




                                                                                                             Page 28
